Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




TRAILBLAZER CLAIMED MEDICARE
PART B ADMINISTRATIVE COSTS IN
  ACCORDANCE WITH FEDERAL
        REQUIREMENTS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patricia Wheeler
                                               Regional Inspector General

                                                      January 2014
                                                      A-06-13-00016
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                               INTRODUCTION

     TrailBlazer claimed administrative costs on its final cost proposals in accordance with
     Federal regulations and applicable guidelines.


WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program
through contracts with private organizations that process and pay Medicare claims. The
contracts with CMS provide for the reimbursement of allowable administrative costs incurred in
processing Medicare claims. After the close of each fiscal year (FY), contractors submit a Final
Administrative Cost Proposal (cost proposal) reporting Medicare costs. Once CMS accepts the
cost proposal, the contractor and CMS negotiate a final settlement of allowable administrative
costs.

From October 1, 2008, through March 21, 2011, CMS contracted with TrailBlazer to process
Medicare Part B (Part B) claims for Texas, Oklahoma, Colorado, New Mexico, and the Indian
Health Service. CMS requested that we perform an audit of the Part B cost proposals that
TrailBlazer submitted for this period.

OBJECTIVE

Our objective was to determine whether the administrative costs that TrailBlazer claimed on its
cost proposals were reasonable, allowable, and allocable in accordance with part 31 of the
Federal Acquisition Regulation (FAR) 1 and the Medicare contract.

BACKGROUND

Title XVIII of the Social Security Act established the Medicare program. CMS administers the
Medicare program through contractors, including Part B Carriers that process and pay Medicare
claims. Contracts between CMS and the Medicare contractors define the functions performed by
the contractors and provide for the reimbursement of allowable administrative costs incurred in
the processing of Medicare claims.

Following the close of each FY, contractors submit to CMS a cost proposal which reports the
Medicare administrative costs incurred during the year. The cost proposal and supporting data
provide the basis for the CMS contracting officer and contractor to negotiate a final settlement of
allowable administrative costs. When claiming costs, Medicare contractors must follow cost
reimbursement principles contained in part 31 of the FAR and other applicable criteria.

During the audit period, which covered October 1, 2008, through March 21, 2011, CMS
contracted with TrailBlazer to serve as a Part B Carrier. TrailBlazer reported Medicare
administrative costs totaling $24,425,018.


1
    48 CFR, part 31, Contract Cost Principles and Procedures.


Review of TrailBlazer’s Medicare Part B Cost Proposals (A-06-13-00016)                             1
TrailBlazer, headquartered in Dallas, Texas, is a wholly owned subsidiary of BlueCross
BlueShield of South Carolina (BlueCross). BlueCross provided certain management and other
operational support services for TrailBlazer, including accounting, financial, human resources,
legal, and general corporate administration.

HOW WE CONDUCTED THIS REVIEW

Our audit covered the period October 1, 2008, through March 21, 2011. For this period,
TrailBlazer reported final administrative costs to CMS totaling $24,425,018.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See the Appendix for the details of our scope and methodology.

                                         RESULTS OF AUDIT

TrailBlazer claimed program administrative costs that were reasonable, allowable, and allocable
in accordance with part 31 of the FAR and the Medicare contract.




Review of TrailBlazer’s Medicare Part B Cost Proposals (A-06-13-00016)                            2
                     APPENDIX: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered the period October 1, 2008, through March 21, 2011. For this period,
TrailBlazer reported final administrative costs to CMS totaling $24,425,018.

In planning and performing this audit, we reviewed TrailBlazer’s internal controls for allocating
costs to cost objectives in accordance with the FAR and the Medicare contract. Our objective
did not require us to review TrailBlazer’s overall internal control structure. We limited our
review to obtaining an understanding of TrailBlazer’s procedures for identifying and reporting
cost claims to CMS. We used the latest FACP that we were given for each year as the basis for
the final settlement amount of allowable administrative costs.

We conducted our audit work from January through November 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Medicare laws, regulations, and guidelines, including part 31 of the
        FAR, the Medicare Financial Management Manual, chapters 1, 2, and 7, and
        TrailBlazer’s contract with CMS;

    •   reconciled the cost proposal from October 1, 2008, through March 21, 2011, with
        TrailBlazer’s accounting records;

    •   performed analytical tests of TrailBlazer’s general ledger;

    •   selected and reviewed a judgmental sample of invoices, expense vouchers and reports,
        and journal entries;

    •   interviewed TrailBlazer officials about their cost accumulation processes for cost
        proposals and gained an understanding of their cost allocation systems;

    •   reviewed payroll journals, corporate bonus plans, and personnel records; and

    •   tested costs for allowability, allocability, and reasonableness.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Review of TrailBlazer’s Medicare Part B Cost Proposals (A-06-13-00016)                              3
